U.S. Department of Justice
Office of the Solicitor General

Washington, D. C. 20530

November 18, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Jay Anthony Dobyns v. United States, No. 19-389
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on September 23,
2019. The government's response is now due, after one extension, on November 25, 2019. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including January 3, 2020, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government's response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19-03 89
DOBYNS, JAY ANTHONY
USA

DAVID L. ABNEY
ARIZONA ASSOCIATION FOR JUSTICE
1661 EAST CAMELBACK ROAD
SUITE 104
PHOENIX, AZ 85016
480-734-8652
ABNEYMATURIN@AOL.COM
J. MARK GIDLEY
WHITE & CASE LLP
701 THIRTEENTH STREET, NW
WASHINGTON, DC 20005
202-626-3609
MGIDLEY@WHITECASE.CM
JAMES B. REED
UDALL SHUMWAY PLC
1138 N. ALMA SCHOOL ROAD
SUITE 101
MESA, AZ 85201
480-461-5354
JBR@UDALLSHUM WAY. COM

